No.

IN THE SUPREME COURT OF THE UNITED STATES

JUSTIN L. KNIGHT, PETITIONER
V.
STATE OF NEBRASKA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE NEBRASKA COURT OF APPEALS
PROOF OF SERVICE

I, JUSTIN L. KNIGHT, do swear or declare that on this date, January 09,
2021, as required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI on
each party to the above proceeding or that party's counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and
with first class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calander days.
The names and addresses of those served are as follows:
DOUGLAS J. PETERSON #18146
Nebraska Attorney General
2115 State Capitol
P.O. Box 98920
Lincoln, Nebraska 68509-8920
I declare under penalty of
Executed on January 09, 2021.
Justin L. Knight #89125
pro se Petitioner
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

